HHS/OIG-Audit-"Review of Mutual of Omaha's Internal Controls to Prevent PIP Providers From Receiving Dual Payments"(A-07-01-02621)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Mutual of Omaha's Internal Controls to Prevent PIP Providers
From Receiving Dual Payments," (A-07-01-02621)
October 31, 2001
Complete
Text of Report is available in PDF format (678 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Mutual had adequate controls
to ensure PIP providers had not received dual payments.  Dual payments occur
when a provider receives PIP and claims payments from the Medicare program for
the same services, resulting in an overpayment to the provider.  We found
that the quarterly procedures to detect dual payments were adequate.  However,
we did not always find evidence that Mutual's auditors had performed the dual payment
detection procedure.  We recommended that Mutual follow their procedures to
detect dual payments and complete the dual payment verification worksheet for all
cost report settlements of PIP providers.  Mutual acknowledges that the cost
report settlement files did not consistently contain documentation which verified
that the dual payment detection procedure was performed.   The dual payment
verification worksheet has been added to Mutual's tentative settlement worksheet
templates.  Additionally, Mutual has incorporated the dual payment verification
worksheet into the standardized interim payment worksheets.